<html>
<title> - CONDEMNING THE GOVERNMENT OF IRAN'S STATE-SPONSORED PERSECUTION OF ITS BAHA'I MINORITY AND ITS CONTINUED VIOLATION OF THE INTERNATIONAL COVENANTS ON HUMAN RIGHTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


CONDEMNING THE GOVERNMENT OF IRAN'S STATE-SPONSORED PERSECUTION OF ITS 
   BAHA'I MINORITY AND ITS CONTINUED VIOLATION OF THE INTERNATIONAL 
                       COVENANTS ON HUMAN RIGHTS

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                              H. Res. 220

                               __________

                           SEPTEMBER 15, 2016

                               __________

                           Serial No. 114-221

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
21-544PDF                      WASHINGTON : 2016                       
                                 
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e392e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a>  
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 220, Condemning the Government of Iran's state-sponsored 
  persecution of its Baha'i minority and its continued violation 
  of the International Covenants on Human Rights.................     2
  Amendment to H. Res. 220 offered by the Honorable Ileana Ros-
    Lehtinen, a Representative in Congress from the State of 
    Florida, and chairman, Subcommittee on the Middle East and 
    North Africa.................................................     7

                                APPENDIX

Markup notice....................................................    14
Markup minutes...................................................    15
Markup summary...................................................    16


 
CONDEMNING THE GOVERNMENT OF IRAN'S STATE-SPONSORED PERSECUTION OF ITS 
   BAHA'I MINORITY AND ITS CONTINUED VIOLATION OF THE INTERNATIONAL 
                       COVENANTS ON HUMAN RIGHTS

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2016

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2255, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. Thank you. The subcommittee will come to 
order. Pursuant to notice, we meet today to mark up House 
Resolution 220, Condemning the Government of Iran's state-
sponsored persecution of its Baha'i minority and its continued 
violation of the International Covenants on Human Rights. As 
your offices were notified earlier this week, we are going to 
consider it en bloc with a minor amendment that we had 
circulated updating some of the figures in the resolution. And 
so without objection, the following items provided to your 
offices earlier this week will be considered en bloc and are 
considered as read: House Resolution 220, Condemning the 
Government of Iran's State-Sponsored Persecution of Its Baha'i 
Minority, and Ros-Lehtinen amendment 57.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
    Ms. Ros-Lehtinen. Without objection, all members may have 5 
days to submit statements and materials for the record. I now 
recognize myself to speak.
    First, I want to thank my good friend, my Florida 
colleague, Ranking Member Deutch, our full committee Ranking 
Member Eliot Engel for joining me in introducing this 
resolution and I would also like to thank Chairman Royce and 
his staff for working closely with us to make this markup 
happen.
    With all the focus being on Iran's nuclear program and the 
JCPOA, many people often lose sight of the regime's horrendous 
human rights record, and while we must continue to shine a 
light on the dangers of Iran's nuclear program, its ballistic 
missile program, its support for terror, and its continued 
provocations against the United States and our ally, the 
democratic Jewish State of Israel, we cannot turn a blind eye 
to the suffering of the Iranian people under the Supreme 
Leader, and the so-called moderate Rouhani, and we must not 
turn a blind eye to the suffering of the ethnic and religious 
minorities in Iran, like the Baha'i.
    With over 300,000 adherents, the Baha'i minority in Iran is 
the largest non-Muslim religious minority in that country, but 
because of their faith, they are forced to endure terrible 
persecution and repression by the Iranian regime. Baha'i school 
children are constantly harassed and pressured to recant their 
beliefs, and adult Baha'i adherents are barred from public 
sector employment, and private sector employers are pressured 
to not hire them.
    The Iranian regime will not recognize Baha'i marriages, and 
worse, Baha'i cemeteries and holy places are constantly 
attacked and destroyed. Members of this religious minority are 
routinely subjected to arbitrary arrest and detention, their 
homes are frequently raided and their property is being 
confiscated. Hundreds of Baha'i have been killed by the Iranian 
regime since the 1979 revolution. Scores have been executed and 
thousands more have been imprisoned.
    Currently, there are 60 Baha'is in prison, including the 
seven leaders of the Baha'i community in Iran who are serving 
20-year sentences, the longest of any prisoner of conscience in 
Iran.
    House Resolution 220 shines a light on this dire situation, 
and puts the Iranian regime on notice that the world is 
watching its violations of religious freedom and human rights, 
and will not stand idly by in the face of this brutal 
repression.
    This resolution calls on the Iranian regime to release the 
imprisoned Baha'is and all other religious prisoners. It urges 
the President and Secretary of State to condemn the Iranian 
regime's continued violation of human rights, and this 
resolution urges the President and the Secretary of State to 
impose sanctions on individual Iranian officials directly 
responsible for human rights violations in Iran.
    The administration has the tools available to it, and it 
has the evidence of wrongdoing by Iranian regime officials. It 
is time to use those tools that Congress has given it to hold 
these officials accountable for their human rights abuses. I 
urge my colleagues to support this measure. I now turn to my 
good friend and Florida colleague, the ranking member, for his 
remarks.
    Mr. Deutch. Thank you, Madam Chairman, thanks for holding 
today's markup. I would like to thank the other members who 
introduced this legislation along with us, Representatives 
Engel, Chabot, Schakowsky, and Dold. The resolution before us 
condemns the government of Iran's systemic, state-sponsored 
persecution of the Baha'i faith.
    The treatment that Baha'i receive in their own country is 
deplorable. It deserves to be condemned by all responsible 
nations. Now, the discussion in this committee over Iran's 
human rights abuses is unfortunately nothing new. This is a 
regime that brutally represses political opposition, it 
violates due process, executes minors, detains foreign 
nationals, and essentially violates the most basic rights of it 
citizens daily by using technology to restrict the 
communication and access to information.
    The Baha'i community has been severely targeted. Baha'i 
have been banned from practicing their faith. Baha'i have been 
denied jobs. They have had their homes raided and property 
confiscated, and they have had their leaders arrested and 
imprisoned. Since 1979, more than 200 Baha'i leaders have been 
executed.
    Currently, seven Baha'i leaders are serving up the longest 
sentences handed down to any prisoners of conscience in Iran, 
having been convicted of crimes such as, and I quote, ``spying 
for Israel, insulting religious sanctities, propaganda against 
the regime, and spreading corruption on earth.''
    Madam Chairman, 15 times before, this Congress has 
condemned the persecution of the Baha'i. We now have new 
channels for engagement with Iran, and when U.S. officials meet 
with their Iranian counterparts, human rights must be on the 
agenda every time. I have been proud to partner with the 
chairman in past efforts to impose new sanctions against 
Iranian officials for human rights abuses. Those sanctions are 
still on the books. They did not disappear when the nuclear 
deal was signed, and the administration has stated it is 
committed to enforcing them.
    The resolution before us today puts this Congress on record 
once again. We will stand up for the rights of religious 
minorities, and we will never be silent when it comes to 
calling out those who commit human rights abuses. I urge my 
colleagues to support this resolution in support of the Baha'i 
community, and I yield back.
    Ms. Ros-Lehtinen. Well said. Thank you, Mr. Deutch. I would 
now like to recognize other members for their statements. Mr. 
Chabot of Ohio.
    Mr. Chabot. Thank you very much, Madam Chair, and thank you 
for your leadership on this very important issue condemning the 
Government of Iran for its state-sponsored persecution of the 
Baha'i minority in that country.
    Iran's persecution of its Baha'i minority is sponsored by 
the state, and it is in violation of international law, the 
International Covenants on Human Rights. Since the revolution 
in 1979, at least 200 Baha'i religious leaders have been 
executed by the state; 10,000 have been dismissed from their 
jobs; 700 have been arrested for no reason at all since 2005. 
The Baha'i are required to register with the police, their 
homes are raided, their businesses and property are 
confiscated, their children are denied the right to an 
education, their cemeteries are desecrated. It goes on and on.
    Why does all this happen? Because the Islamic Republic of 
Iran sees the Baha'i as heretics who deserve to be persecuted. 
It is absolutely outrageous. The Islamic Republic of Iran is in 
violation of its international legal commitments, the 
International Covenants on Human Rights. The resolution before 
us this morning condemns Iran's persecution of the Baha'i and 
calls upon the Iranian Government to release seven imprisoned 
Baha'i leaders and 12 educators.
    This resolution calls on the President and Secretary of 
State to work with our allies to condemn Iran's treatment of 
its Baha'i minority and its deplorable human rights record. 
Finally, it urges the President and Secretary of State to 
utilize the comprehensive Iran Sanctions, Accountability, and 
Divestment Act of 2010 to sanction Iran for its mistreatment of 
its Baha'i community and its other violations of human rights 
under international law.
    Once again, I thank you, Madam Chair, and the other members 
of the committee who support this measure, and I yield back the 
balance of my time.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chairman and Ranking Member 
Deutch, for holding this markup today. I commend you both for 
introducing this important resolution condemning the Government 
of Iran's state-sponsored persecution of its Baha'i minority 
and its continued violation of the International Covenants on 
Human Rights, and I am proud to have joined as a cosponsor.
    I am pleased that this subcommittee has come together, as 
it so often does, in the spirit of bipartisanship, to pass 
legislation that deals with important issues. As we are all 
well aware, the Government of Iran continues to engage in 
widespread human rights abuses.
    On March 2016, reported the U.N. Special Rapporteur on the 
situation of human rights in the Islamic Republic of Iran, 
found that Iran is in violation of its international human 
rights obligations by continuing practices that criminalize the 
exercise of fundamental human rights.
    Iran's ethnic, religious, and linguistic minority 
communities face persistent discrimination and persecution. The 
Government of Iran systematically discriminates against 
religious and ethnic minorities, including Baha'is, Christians, 
Jews, Sufis, Zoroastrians, Kurds, Arabs, Baluchis, Turkmen, and 
Osiris, and Muslims deemed as divergent from state ideology, 
among others. Baha'is are the country's largest non-Muslim 
religious minority.
    Since the 1979 Islamic revolution in Iran, systemic 
persecution of Baha'is has been a matter of government policy. 
The Iranian Government's attacks on Baha'is have been on the 
increase, and since 2005, more than 860 Baha'is have been 
arrested, including all seven members of a former leadership 
group serving the Baha'i community of Iran.
    Other types of persecution inflicted on the Baha'i 
community in Iran include economic and educational 
discrimination, strict limits on the right to assemble and 
worship, and the dissemination of anti-Baha'i propaganda in the 
government-led news media. Attacks on Baha'i to Baha'i-owned 
properties go unprosecuted and unpunished, creating a sense of 
impunity for attackers.
    Aside from anti-Baha'i persecution, Iran's other human 
rights violations run the gamut. The Guardian Counsel of Iran 
disqualified thousands of candidates from running in the 2016 
parliamentary elections, and the 88-member assembly of experts 
and continues to tightly control all election activities.
    According to the Committee to Protect Journalists, as of 
December 2015, Iran held at least 50 journalists, bloggers, and 
social media activists in detention. Iran carries out the 
second highest number of executions of any country in the world 
after China, and according to the Human Rights Watch, more than 
800 individuals were reportedly executed in 2015, most for 
drug-related charges.
    Widespread immunity remains in place for police and 
security forces that commit human rights violations. The penal 
code criminalizes all sexual relations outside of marriage, and 
individuals can be put to death for consensual same-sex 
conduct. Women remain significantly underrepresented in 
politics and government, and are denied equal rights in 
divorce, child custody, and inheritance.
    The Government of Iran provides no protection to women and 
children forced into sex trafficking, and officials have been 
complicit in sex trafficking frequently.
    We must continue to expose blatant violations of human 
rights around the world. I therefore strongly support this 
important resolution which condemns Iran for its systemic, 
state-sponsored human rights abuses and urge all of my 
colleagues to do the same. And with that, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Cicilline. We will 
turn now to Mr. Grayson of Florida.
    Mr. Grayson. I have no statement on this. Thank you very 
much.
    Ms. Ros-Lehtinen. Thank you. Hearing no further requests 
for recognition, the Chair now moves that the subcommittee 
favorably report the items considered en bloc to the full 
committee. All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, the motion 
is approved, and House Resolution 220 is reported favorably to 
the full committee as amended.
    I want to thank all of the members and the staff for the 
assistance and cooperation that went into today's markup. Thank 
you so much. And with that, the subcommittee stands adjourned. 
Thank you, ladies and gentlemen.
    [Whereupon, at 9:47 a.m., the subcommittee was adjourned.]

                                 
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
